December 31, 2020
Via Electronic Filing
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re: Board of County Commissioners of Boulder County v. Suncor Energy (U.S.A.)
Inc., No. 20-783
Dear Mr. Harris:
I represent the Board of County Commissioners of Boulder County, as well as corespondents the Board of County Commissioners of San Miguel and the City of Boulder, Colorado,
in the above-captioned case. Pursuant to Rule 30.4, I am writing to request a 60-day extension of
time to file the Respondents’ brief from January 4, 2020, to March 5, 2021. Counsel for Petitioners
consent to the extension.
The petition for certiorari was filed on December 4, 2020. Given office closures for the
holidays, as well as briefing in multiple ongoing domestic and international litigations, Respondents
respectfully request this 60-day extension.
Respondents note that Petitioners requested that their petition for certiorari be held pending
the decision in BP p.l.c. v. Mayor & City Council of Baltimore, No. 19-1189, which asks an identical
question and is calendared for oral argument on January 19, 2021. Pet. at 2. Respondents do not
object to holding the petition pending the outcome in BP. Nonetheless, if for any reason the Court
does not resolve the question presented in BP, Respondents will oppose certiorari in this case. In
that event, it will best serve all parties and the Court for the Brief in Opposition to be informed by
the BP oral argument.
Thank you in advance for your consideration of this matter.
Sincerely,
Marco Simons
Counsel for Respondents
cc: All counsel via electronic mail
Southeast Asia Office
PO Box 123
Chiang Mai University
Chiang Mai 50202 Thailand
+66-81-531-1256
infoasia@earthrights.org

Amazon Office
Casilla Postal 45
Barranco, Lima 4, Peru
+51-1-447- 9076
infoperu@earthrights.org

www.earthrights.org

US Office
1612 K Street, NW, Suite 800
Washington, DC 20006
Tel: +1 (202) 466-5188
Fax: +1 (202) 466-5189
infousa@earthrights.org

